           Office of Inspector General
           Program Evaluation Report




Design for Objective 8.4
Could Be Improved by
Reorienting Focus on Outcomes


   Goal 8 - Sound Science and Innovative Approaches

   EPA will develop and apply the best available science for
   addressing current and future environmental hazards, as well as
   new approaches toward improving environmental protection.


   Objective 8.4 - Pollution Prevention
   and New Technologies

   By 2006, develop and verify improved tools, methodologies, and
   technologies for modeling, measuring, characterizing,
   preventing, controlling, and cleaning up contaminants
   associated with high priority human health and environmental
   problems.




Report No. 2002-P-000002                               November 21, 2001
Inspector General Office      Office of Program Evaluation
Conducting the Review:


Program Office Involved:      Office of Research and Development


Office of Inspector General   Manju Gupta
Evaluation Team:              James Hatfield
                              Dale Pahl
                              Kevin Ross
                              Terry Simpson
                    Executive Summary
Purpose of Pilot Evaluation

          The Environmental Protection Agency’s (EPA’s) Office of Inspector General, in
          collaboration with EPA’s Office of Research and Development (ORD), conducted
          this pilot evaluation. As agreed to by both parties, this pilot sought to determine
          whether program evaluation techniques are appropriate for measuring the progress
          in accomplishing Government Performance and Results Act goals. This pilot
          specifically sought to document and evaluate the program designs for Goal 8, with
          a focus on Objective 8.4 (Pollution Prevention and New Technologies) research.

          We concluded that the evaluation process was appropriate. The approach
          provided a better understanding of the programs, answered key questions, and
          provided a partnership approach that was beneficial in developing meaningful
          observations about the designs for Goal 8 and Objective 8.4. We provided results
          in briefings and a draft report to ORD managers.

Results of Evaluation

          This report represents our observations on whether the designs for Objective 8.4
          and the research portions of Goal 8 were consistent with the intent of the
          Government Performance and Results Act, i.e., conducive to achieving outcome-
          related results. As part of this evaluation, we also evaluated whether the program
          design was clear and how the performance goals were being achieved.

          The 1997 EPA Strategic Plan recognizes that Goal 8 research is important, and
          ORD is developing multi-year plans for some research areas. Each multi-year plan
          for research details Annual Performance Goals and Measures designed to lead to
          achievement of long-term goals. We found that ORD’s Goal 8 research priorities
          are consistent with National Research Council recommendations for core research,
          but identified opportunities for improvement that may facilitate EPA’s
          accomplishing its mission of improving the environment and protecting human
          health. Specifically:

          •   Focus Can Be Placed on Outcomes. ORD has developed a multi-year plan
              for Objective 8.4 that links the research strategy to major milestones and goals.
              The Annual Performance Goals and Measures focus primarily on outputs (such
              as developing new methods, models, and tools) rather than on achieving
              outcomes (the effects resulting from the acceptance and use of these new tools
              and technologies). Placing greater focus on potential outcomes could result in
              more valuable benefits being realized.
•   Technology Transfer Can Be Expanded. Success for Objective 8.4 and,
    ultimately, Goal 8 depends on effective transfer of technology so that
    customers can understand and use research results to accomplish desired
    environmental and health benefits. Technology transfer currently generally
    consists of publication in journals and presentation of papers at scientific
    conferences. While these types of activities are customary and necessary,
    further actions should be taken to more effectively transfer research products
    to customers so that successful application of products occurs.

•   Program Design Can Be More Consistent. ORD created several documents
    between 1997 and 2001 that describe strategies and plans for accomplishing
    the Pollution Prevention and New Technologies research goal. A comparison
    of these documents and the implemented program showed program design
    inconsistencies that can limit successful implementation. Resolving these
    inconsistencies may enhance ORD’s ability to achieve its objectives.

•   Planning System Can Be Enhanced. ORD has developed a research
    planning system to establish priorities that links the “resources” for research
    with ORD “activities.” There is opportunity to enhance the planning system by
    linking each research area to outcomes; providing more detailed
    documentation for multi-year research; and collecting and providing actual
    performance data in a time frame so it can be used for diagnosing and
    remedying problems with implementation.

•   Two-Tiered Strategy for Goal 8 Can Be Made Clearer. The 1997 EPA
    Strategic Plan provides a two-tiered strategy for Goal 8: develop and apply the
    best available science, as well as new approaches for improving environmental
    protection. While both aspects are important, the Goal 8 description does not
    provide an approach for integrating the two-tiered strategy toward one goal.
    Opportunity exists to provide a clearer explanation of how the two-tiered
    strategy is intended to work in order to accomplish EPA’s environmental
    outcomes.

•   Externalities Can Be Better Addressed. Agency managers need to
    recognize externalities (factors beyond a Program’s control that can help or
    hinder its success) and their potential impact on program outcomes. Planning
    documents do not take into sufficient account the role played by externalities
    for Goal 8 or Objective 8.4 research. EPA and ORD can benefit by
    anticipating externalities such as budget decisions, as well as by coordinating
    with other organizations doing environmental research so that efficiencies can
    be leveraged.

ORD has already taken several actions based on our evaluation to improve Goal 8
and Objective 8.4 programs.


                                     ii
                                      Table of Contents

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     i



Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            1

          Purpose of Program Evaluation Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    1
          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
          Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             2



Summary of Observations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         5

          Focus Can Be Placed on Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   5
          Technology Transfer Can Be Expanded . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     6
          Program Design Can Be More Consistent . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       7
          Planning System Can Be Enhanced . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 8
          Two-Tiered Strategy for Goal 8 Can Be Made Clearer . . . . . . . . . . . . . . . . . . . . .                           10
          Externalities Can Be Better Addressed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                12



Exhibits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         13

          1: Logic Models for Goal 8 and Objective 8.4 . . . . . . . . . . . . . . . . . . . . . . . . . .                       13
          2: Office of Research and Development Actions Taken
             in Response to Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             15

          3: Office of Research and Development Response
             to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         17
                            Introduction
Purpose of Program Evaluation Review
        A new strategic direction for the Environmental Protection Agency’s (EPA’s)
        Office of Inspector General is performing program evaluations to provide
        Congress and EPA with best practices, analyses, and recommendations to address
        serious management challenges, accomplish environmental objectives, and achieve
        Government Performance and
        Results Act (GPRA) goals.
                                                       GPRA and Inspectors General

        OIG began pilot-scale program            “The nation’s Inspectors General have the
        evaluations in Fiscal Year 2000.         capability individually and collectively to review
        EPA’s Office of Research and             and analyze what the Federal government now
                                                 does and ask such questions as: How can we
        Development (ORD) volunteered
                                                 improve the organization and management of
        for this pilot. Our objective was to
                                                 the Federal government in order to maximize
        document and evaluate the design         productivity, effectiveness, and accountability
        of ORD’s portion of EPA Strategic        for performance results .... I’m encouraged that
        Plan’s Goal 8 program, with              many Inspectors General are taking the lead to
        special emphasis on Objective 8.4,       ensure that the Results Act is fully implemented
        to determine whether program             throughout the Federal government.”
        evaluation techniques are
                                                 S Senator Fred Thompson, Chairman,
        appropriate for measuring the              Senate Committee on Government Affairs,
        progress in accomplishing GPRA             Journal of Public Inquiry, Fall/Winter 2000
        goals.

Background
        GPRA, enacted in 1993, challenges Federal agencies and managers to restructure
        their programs around answers to several basic questions: What is our mission?
        What are our goals and how will we achieve them? How can we measure our
        performance? In essence, the Act seeks to shift Federal planning, management,
        and decision making away from a traditional focus on resources and activities to a
        focus on results and the outcomes of those results on the lives of citizens. To
        make the government more outcome oriented, the Act requires agencies to: specify
        the outcomes they are trying to achieve, identify specific goals and measures, and
        evaluate performance against those goals and measures.

        A centerpiece of the Act’s outcome-oriented focus is that Agencies prepare
        strategic plans that reach at least 5 years into the future and describe the critical
        linkages between current activities and long-terms goals. In essence, an agency’s
        strategic plan is its road map for achieving long-term outcomes.


                                          1
        The 1997 EPA Strategic Plan describes the agency’s strategy for the 5-year period
        of Fiscal Years 1997-2001 and includes 10 GPRA goals. Goal 8 is as follows:


                 Goal 8 - Sound Science and Innovative Approaches
             EPA will develop and apply the best available science for addressing
             current and future environmental hazards, as well as new approaches
             toward improving environmental protection.


        EPA’s strategy for Goal 8 identifies three performance measures: quality,
        relevance, and impact on environmental decision making. Goal 8 includes
        10 objectives. ORD implements core research in Objectives 8.1 through 8.4 and is
        responsible for a significant part of EPA’s Goal 8 resources. ORD is also
        responsible for conducting research under Goals 1 through 7. We focused our
        review on Objective 8.4:


                           Objective 8.4 - Pollution Prevention
                                 and New Technologies
             By 2006, develop and verify improved tools, methodologies, and
             technologies for modeling, measuring, characterizing, preventing,
             controlling, and cleaning up contaminants associated with high
             priority human health and environmental problems.


        The Pollution Prevention Act of 1990 established certain requirements for
        pollution prevention and a national policy that pollution should be prevented or
        reduced at its source. Within EPA, the Office of Prevention, Pesticides, and Toxic
        Substances leads the Agency’s response to requirements of the Act. Within its
        GPRA structure, EPA established research for pollution prevention as
        Objective 8.4 under Goal 8. ORD is responsible for developing, implementing,
        and managing pollution prevention research. Objective 8.4 research is
        accomplished through a combination of in-house and extramural mechanisms.

Scope and Methodology
        We documented and evaluated the overall design of GPRA Goal 8, and evaluated
        in more detail the design of Objective 8.4 and its program components.
        Objective 8.4 was selected based on ORD input that indicated it was a well-
        documented program and would be a good choice for program design evaluation.

        To help determine whether EPA’s designs for Objective 8.4 research are consistent
        with Congressional intent, we developed questions from the U.S.


                                         2
                General Accounting Office
                                                            Questions for Evaluating the Design of
                recommendations to Congress
                                                                   EPA’s Goal 8 Research
                about how GPRA strategic
                plans can be improved to                 • Is the GPRA structure (i.e., the objective
                better support Congressional               statement and performance measures) for
                                                           Objective 8.4 focused on outcomes?
                and agency decision making.
                Those questions are shown in
                                                         • Are the program designs for Goal 8 and Objective
                the box at right. This report              8.4 clear? Are the elements of the design, and the
                presents only the most                     links between these elements, clear?
                significant observations related
                to the questions.                        • How are the performance goals to be achieved?
                                                           Are the strategies logically linked to the goals and
                To interpret information, we               the day-to-day activities of the managers and
                relied extensively on program              staff? Do the managers monitor and assess
                design and evaluation theory,              external factors that can help or hinder achieving
                literature, and techniques.                outcomes?

                We reviewed EPA’s Goal 8
                strategy, and focused on
                research in Objective 8.4 funded through EPA’s Science and Technology
                appropriation and managed by ORD. To develop answers to the questions raised,
                we gathered and interpreted information from the following:

                •   Interviews and Workshops: We met with various program managers,
                    particularly those involved with Objective 8.4 research. We conducted several
                    workshops with ORD managers to address various aspects of the Objective 8.4
                    research program.

                •   Documents: We examined a large number of documents that describe EPA’s
                    mission as well as GPRA planning, goals, intended results, and program logic.
                    We used the 1997 EPA Strategic Plan as a primary source of information
                    through which EPA communicated to Congress and the public about GPRA
                    strategies, goals, and management within EPA for Fiscal Years 1997-2001.
                    We reviewed various EPA planning and budget documents, ORD strategic
                    plans, and reports from external agencies such as the U.S. General Accounting
                    Office and the National Research Council.

                We did not consider other customers or stakeholders beyond ORD who may fund,
                support, or participate in programs designed to achieve similar outcomes or goals.

                We used logic models1 to identify and illustrate Goal 8 and Objective 8.4 research
                program designs, and to discuss the designs with ORD managers. Figure 1 that
                follows illustrates a generic logic model for an environmental program. The figure
                depicts the elements of program design, and the arrows between these elements

        1
          “Logic Models: A Tool for Telling Your Program’s Performance Story,” McLaughlin, J.A.; and
Evaluation and Program Planning 22 (1999) 65-72, Jordan, G.B.

                                                     3
                   represent critical links in the program’s design and functioning. In this figure, the
                   program design theory is presented in the narrative text within the rectangles.
                   When used this way, logic models can facilitate communication about the elements
                   of a program’s design, the links between these elements, explicit and implicit
                   assumptions about program operation, and expectations about results and
                   accountability. Exhibit 1 contains logic models we developed for the Goal 8 and
                   Objective 8.4 programs.


                       Figure 1: A General Logic Model for an Environmental Program



Resources        Activities            Outputs               Customers             Short-Term               Intermediate        Long-Term
                                                             Reached               Outcomes                 Outcomes            Outcomes


                 The specific          Products,                                                            Environmental
Human and                                                    Users of the          Changes in                                   Desired program
financial        actions and           goods, and                                  customer                 changes resulting   impacts ...
                                                             program's
                 tasks needed to       services                                                             from customer
resources, and                                               outputs.              knowledge,
                 produce the           provided to the                                                      actions ...
other inputs                                                                       attitudes, skills,
needed to        program's             program's                                   and aspirations                              ... such as
support the      outputs.              customers.                                  (KASA)...                ... such as
                                                                                                                                improved
program.                                                                                                    reduced
                                                                                                                                environmental
                                                                                   ...followed by           emissions,
                                                                                                                                health or restored
                                                                                   changes in               improved ambient
                                                                                                            conditions, or      ecosystems.
                                                                                   customer actions
                                                                                                            reduced exposure
                                                                                                            to contaminants.




                                                                Externalities

                    These are factors outside of the program's control that may influence (help or hinder) the success of the
                                                 program and the accomplishment of its results.




                   Although this review is a program evaluation and not an audit, we followed
                   applicable Government Auditing Standards to the extent practical – particularly in
                   regard to qualifications, due professional care, quality control, planning,
                   supervision, evidence, and reporting. Because of significant and complex issues on
                   the extent to which environmental research can be managed under GPRA, the
                   Office of Inspector General determined that, for this pilot program evaluation, a
                   deviation from the Government Auditing Standards about organizational
                   independence was necessary. The team conducting this pilot included
                   professionals from ORD as well as the Office of Inspector General. The pilot team
                   leader was detailed to the Office of Inspector General from ORD for the duration
                   of the pilot. Before this detail, the team leader did not have organizational or
                   research responsibilities associated with ORD research in Objective 8.4.




                                                                      4
        Summary of Observations
      The 1997 EPA Strategic Plan recognizes that Goal 8 research has an important
      role in EPA’s achieving the long-term outcomes of protecting human and
      environmental health (see box). ORD is conducting a pilot program to develop
      multi-year plans for some of its most
      important research areas. Each Multi-
      Year Plan for research details Annual                 Value of Research
      Performance Goals and Measures
                                                EPA’s research program will measurably
      designed to lead to achievement of        increase our understanding of
      long-term goals.                          environmental processes and our capability
                                                   to respond to and solve environmental
      Based on our evaluation, we observed         problems . . . . Research will lead to
                                                   greater certainty in assessing and
      that ORD has made significant                comparing environmental risks.
      progress in its GPRA efforts but can
                                                    – 1997 EPA Strategic Plan, page 53
      place more focus on outcomes. We
      also noted various ways in which ORD
      can make its Objective 8.4 program
      design clearer by expanding on ways it transfers technology, being more consistent
      with its design, and making planning system improvements. Furthermore,
      performance goals for Goal 8 can be better achieved by making the two-tiered
      strategy clearer and taking steps to anticipate externalities that can impact on
      outcomes.


Potential Area
for Improvement     Focus Can Be Placed on Outcomes

      Analysis of the Annual Performance Goals and Measures indicated that ORD
      focuses primarily on outputs, such as developing new methods, models, tools, and
      technologies. Placing greater focus on potential outcomes rather than the steps
      taken to achieve outcomes could result in more valuable benefits being realized.

      For example, one Objective 8.4 Annual Performance Measure is described as
      “update the Coating Alternatives Guide (CAGE) to show the chemical constituents
      of paint formulation and identify the most significant amounts of VOCs (volatile
      organic compounds) and HAPs (hazardous air pollutants) in commercially
      marketed paint formulations.” Focusing this measure more on outcomes being
      sought would enable managers to better assess how successfully the actions
      accomplish the desired results.

      Research outputs may result in short-term outcomes, such as reduced scientific
      uncertainty and improved environmental decision making, if those outputs are

                                         5
      transferred effectively to customers. These customers (which include EPA, states,
      and industry) and the desired short-term outcomes are represented by the three
      shaded boxes in the middle of the logic model in Exhibit 1. Further, customer
      application of the outputs may result in intermediate outcomes, such as reduced
      emissions or improved environmental quality, which will enable EPA to achieve its
      long-term outcomes of improved environmental and human health. By improving
      the Objective 8.4 program design to include performance measures related to
      short-term outcomes, ORD can measure and know the extent to which customers
      use their research products and, consequently, determine the research’s impact on
      intermediate- and long-term environmental outcomes.

      Objective 8.4 program managers agreed research program designs generally do not
      focus on measuring the application of research products by customers to achieve
      outcomes. Program managers acknowledged that using logic model concepts to
      perform a matrix analysis similar to that found in Exhibit 1 would be helpful in
      understanding the critical linkages in managing for results.


Potential Area
for Improvement     Technology Transfer Can Be Expanded

      The success of Objective 8.4 and, ultimately, Goal 8, depends on effective transfer
      of technology and the communication of research in proper formats that are
      accessible to and usable by a variety of audiences (see box). Both internal and
      external customers use ORD’s research products. Internal customers include
      decision makers and regulators in EPA
      Program Offices and Regions. External
                                                            Impact on Decision Making
      customers and stakeholders include state and
      local government regulators, industries, other     The performance goal is for EPA’s
      researchers, and the general public.               research organization to transfer
                                                         information, findings, and results
                                                         effectively to users, partners, and
      Review of the research area descriptions for       the public.
      Objectives 8.1 through 8.4, as well as
                                                         – 1997 EPA Strategic Plan, page 56
      interviews with ORD managers, indicated
      that EPA technology transfer activities
      consist primarily of:

      •   Publication of methodologies, technologies, and models in technical and trade
          journals and on internet web sites.

      •   Presentation of papers at scientific conferences.

      These types of technology transfer are customary and necessary practices for
      research organizations and should be continued. However, further actions should
      be taken to more effectively transfer research products to internal and external

                                        6
      customers so that successful application of products occurs. This conclusion was
      also reached in a National Academy of Sciences study, Strengthening Science at
      EPA, which states that EPA needs to “substantially increase its efforts to
      disseminate actively ORD’s research products and . . . assist others inside and
      outside the agency in applying them.”

      The 1997 EPA Strategic Plan, as well as ORD’s research planning documents, do
      not identify a systematic approach for transferring research products to customers,
      but such an approach is needed. Effective outreach by ORD to customers and
      stakeholders is a critical element in the designs for Goal 8 and Objective 8.4
      programs, as shown in Exhibit 1. Program documentation should specifically
      describe the resources, activities, outputs, and performance measures related to
      technology transfer and effective customer outreach.

      Furthermore, organizational responsibility for technology transfer should be clearly
      outlined. Objective 8.4 program managers said that although there is a
      Technology Transfer and Support Division within ORD funded by Objective 8.4,
      managers involved with Objective 8.4 are not clear on the level of support this
      division can provide for the transfer of their research products. Program managers
      said this Division provides technology transfer support to all of ORD and
      estimated there is approximately one full-time equivalent of technology transfer
      support for Objective 8.4. Also, ORD’s general workforce consists of highly
      trained scientists, engineers, and researchers, whereas the function of customer
      outreach may benefit from the use of disciplines in addition to scientific research.

      Outreach and technology transfer activities are key to ensuring that customers
      understand ORD’s research products and are able to apply them. These activities
      represent a critical link between the “outputs” and “customers” elements in the
      logic model. If this link does not function properly, the desired changes in
      customer knowledge and behavior (i.e., short-term outcomes) leading to
      improvement in environmental conditions (i.e., intermediate and long-term
      outcomes) may not occur or occur to the level desired.


Potential Area
for Improvement     Program Design Can Be More Consistent

      The long-term goal of Objective 8.4 is to develop and verify new tools,
      methodologies, and technologies for modeling, measuring, characterizing,
      preventing, controlling, and cleaning up contaminants with high priority human
      health and environmental problems by 2006. ORD created several documents
      between 1997 and 2001 that describe strategies and plans for accomplishing this
      Pollution Prevention and New Technologies research goal. We compared the
      program design as described in the ORD documents and the program as it is


                                       7
      actually implemented, and noted that resolving certain inconsistencies may result in
      improvements. Examples of inconsistencies include:

      •   The Pollution Prevention Research Strategy and the Fiscal Year 2002
          Sub-Objective Summary identify an “active” risk assessment research area,
          with allotted resources, but this research area has not been implemented.

      •   One research area described in the Objective 8.4 Sub-Objective Summary –
          the Persistent Bio-accumulative Toxics Initiative – was not mentioned in the
          Pollution Prevention Research Strategy or the multi-year plan. Further, the
          Initiative’s research objectives were not consistent with the strategic goals
          identified in the Pollution Prevention Research Strategy.

      •   Although 30 to 40 staff responsible for technology transfer activities were
          supported by the Objective 8.4 budget, their activities and outputs were not
          described in any Objective 8.4 strategies or plans. Furthermore, program
          managers estimated that only one full-time equivalent was devoted to
          providing support to research managers in Objective 8.4.

      Collectively, such inconsistencies can limit the ability of ORD managers to
      understand and implement the elements of the Objective 8.4 program. Resolution
      of these inconsistencies may enhance ORD’s ability to achieve its objectives.


Potential Area
for Improvement     Planning System Can Be Enhanced

      The multi-media and multi-disciplinary nature of EPA’s Objective 8.4 research
      requires ORD to design, manage, and integrate many individual research projects
      over multiple years. A major
      challenge for EPA’s core
      research program is determining              EPA’s Environmental Research
      which research issues are                               Challenge
      important enough to support, as     Clearly, EPA cannot conduct or sponsor research
      noted by the National Research      on every issue of concern to the public, the
      Council (see box). ORD has          Congress, or even its own program offices . . . .
      developed a research planning       Because EPA’s task of protecting the environment
                                          and human health is so vast and difficult, and
      system to establish priorities to
                                          because resources to undertake the necessary
      help meet this challenge. This      research are very limited, choices will have to be
      system represents a critical link   made among many worthwhile projects.
      in the Objective 8.4 program
                                           -                National Research Council
      design because the priorities it
                                             Building a Foundation for Sound
      identifies are used in making          Environmental Decisions, pages 10, 60.
      resource decisions. ORD’s
      research planning system links

                                         8
the “resources” for research with the “activities” of EPA’s research organization,
as illustrated by the arrow in Exhibit 1 (Figure 2).

ORD program managers indicated that ORD requests input from agency-wide
customers and stakeholders in identifying potential research priorities. Further,
ORD involves senior agency scientists from program and regional offices on
Research Coordination Teams, which recommend research priorities and establish
new priority rankings each year. It may take several years to complete the
individual research projects in a research area, and from 5 to 10 years to complete
all the research areas needed to achieve an objective. With this in mind, we
concluded that EPA’s planning system could better address how research should
contribute to achieving environmental outcomes. Specifically:

<   ORD’s research planning system focuses on the resources, activities, and
    outputs associated with each research area without also addressing how the
    research relates to achieving environmental outcomes. When annual priorities
    are established by the Research Coordination Teams for each research area,
    important GPRA information associated with that year’s research – such as
    performance goals, measures, and progress to achieve outcomes – is not
    available because performance data are collected after the annual research
    priority setting is completed. Consequently, ORD managers responsible for
    implementing Objective 8.4 research programs and projects may not have
    information essential for diagnosing and remedying problems with
    implementation that may be needed to achieve GPRA results.

<   Currently, ORD is conducting a pilot program to develop multi-year plans for
    some of its most important research areas. According to ORD planning
    guidance, the multi-year plans are draft documents that “link the research
    strategy and research plans to show how ORD conducts research in an
    integrated fashion to reach major milestones and end points.” Review of the
    Draft Multi-Year Plan for Objective 8.4 disclosed that it includes activities,
    outputs, and annual performance measures and goals, but does not sufficiently
    consider outcomes. While the draft multi-year plan demonstrates how ORD
    has taken an important step toward linking research strategies to research
    plans, opportunities exist to improve the multi-year planning system by
    orienting the multi-year plan toward outcomes.

<   It is difficult to measure the annual accomplishments of scientific research,
    since research typically takes several years to complete. However, it is
    important that plans for multi-year research projects include milestones that
    can be used to periodically measure and report on progress. The Agency has
    developed a reporting mechanism that rolls up the accomplishments for all
    Strategic Goals, but there are restrictions on how much information can be
    included for research projects still in progress. ORD managers stated it is
    difficult to communicate on a year-to-year basis the progress ORD is making
    toward achieving outcomes.

                                 9
      There is opportunity to enhance the planning system by linking each research area
      to environmental outcomes; providing more detailed documentation (including
      milestones) for multi-year research; and collecting and providing actual
      performance data in a time frame so it can be used by the managers in diagnosing
      and correcting problems in the next annual planning cycle.



Potential Area         Two-Tiered Strategy for Goal 8
for Improvement
                       Can Be Made Clearer

      The 1997 EPA Strategic Plan indicates that the strategy for Goal 8 is two-tiered,
      as discussed in the following box:

                                           Two-Tiered Strategy

       It is clear that, in the future, environmental problems will be dealt with in a different manner
       than they are today. In moving towards this future, EPA has adopted a two-tiered strategy.
       On one level, EPA is working to strengthen those features of the current system that have
       been proven to be effective. At the second level, EPA is designing and testing
       fundamentally new tools and approaches that take advantage of new scientific knowledge
       and technological advancements, a growing ethic of environmental stewardship, the need to
       cut waste, and increase efficiency and similar opportunities as they arise in society.

          - 1997 EPA Strategic Plan, page 53




      The description of the two-tiered strategy for Goal 8 includes the development and
      application of:

      T Best available science.
      T New approaches for improving environmental protection.

      According to the FY 2001 Annual Performance Plan and Congressional
      Justification, Objectives 8.1 through 8.4 address research related to best available
      science while Objectives 8.6 though 8.10 address new approaches (Objective 8.5 is
      reserved for future use). Specifically:




                                              10
                Objective                            Objective Title

 Best               8.1      Ecosystem assessment and restoration
 Available
                    8.2      Human health risk assessment
 Science
                    8.3      Detecting emerging risk issues
                    8.4      Pollution prevention and new technologies
                    8.5      (Reserved for future use)
 New                8.6      Increase integrated holistic partnership approaches
 Approaches
                    8.7      Increase sector based approaches
                    8.8      Regional enhancement of ability to quantify envir. outcomes
                    8.9      Science Advisory Board peer reviews
                   8.10      Incorporate innovative approaches to envir. management


Responsibility for the scientific research-related Objectives 8.1 through 8.4 rests
with ORD, while responsibility for Objectives 8.6 through 8.10 rests with the
Office of the EPA Administrator.

In addition, our analysis indicated that Goal 8 activities are funded through
different Congressional appropriations:

T Objectives 8.1 through 8.4 are funded primarily through EPA’s Science and
  Technology appropriation.

T Objectives 8.6 through 8.10 are funded primarily through EPA’s
  Environmental Program and Management appropriation.

Goal 8 resources identified for Fiscal Year 2001 totaled $328.8 million, of which
about $250.7 million (76 percent) was identified for Goal 8 research in
Objectives 8.1 through 8.4. This budget information indicates that ORD, with its
Objectives related to scientific research, has significant responsibility for achieving
Goal 8 results.

Additional information could be added to the Goal 8 description to enable
customers or stakeholders to better understand how this two-tiered strategy should
be combined to accomplish the long-term environmental outcomes of the goal.
The multiple levels of responsibility and sources of funding adds to the complexity.


ORD managers noted that, as currently designed, it will be difficult to determine
whether EPA is achieving the intended Goal 8 outcomes when Objectives 8.1
through 8.4 are managed and funded by ORD while Objectives 8.6 through 8.10
are managed and funded by other EPA offices. Opportunity exists to provide a
clearer explanation of how the two-tiered strategy is intended to work in order to
accomplish EPA’s environmental outcomes


                                   11
Potential Area
for Improvement     Externalities Can Be Better Addressed

      The 1997 EPA Strategic Plan does not sufficiently consider the impact of
      externalities that can affect the success of Goal 8 research. Externalities are
      factors beyond a program’s control that can help or hinder its success. In advising
      Congress about GPRA strategies, the U.S. General Accounting Office emphasizes
      in its report, Agencies’ Strategic Plans Under GPRA: Key Questions to Facilitate
      Congressional Review, that it is important for program managers to recognize
      externalities and their potential impact on program outcomes.

      We identified a number of externalities that may limit ORD’s ability to accomplish
      Objective 8.4 research outcomes and results. These include:

      <   Budget decisions.
      <   Economic conditions.
      <   Other research organizations.
      <   Other federal agencies involved in environmental research.
      <   Planning guidance.

      Although ORD may not be able to control externalities, such as budget reductions
      and economic downturns, ORD can benefit by recognizing such potential areas in
      advance and taking preparatory actions accordingly. Furthermore, by working
      together with other research organizations and federal agencies conducting
      environmental research, efficiencies can be leveraged by coordinating the various
      efforts so that duplication is avoided and more positive results are achieved.




                                       12
                                                                          Exhibit 1:
                         Logic Models for Goal 8 and Objective 8.4

                                        Figure 2: Logic Model Depicting the Goal 8 Research Program Design


                                                     Outreach                                                    Performance Measurement (Desired)
                                  Communication, technology transfer, training, .                                  Progress toward or attainment of outcomes
                                                        ..


                  Annual Research Planning System

      Resources            Activities              Outputs               Customers             Short-Term                Short-Term                Intermediate            Long-Term
                                                                         Reached               Outcomes                  Outcomes                  Outcomes                Outcomes
      EPA:                 Plan                    Tools                                       (Knowledge,                  (Actions)
                                                                                               Attitudes, Skills
                                                                         EPA Programs                                                              Reduced                 Improved human
      FTEs                 Acquire                 Technologies                                & Aspirations)            Pollution                 emissions               health
      $s                                                                 EPA Regions                                     prevention
      Research             Coordinate              Databases                                   Reduced                   technologies              Reduced loadings        Improved
      Scientists &                                                                             uncertainty               installed and used
                                                                         State & Local                                                                                     ecosystem health
      Instruments          Conduct                 Methods               Agencies                                                                  Reduced
                           Research                                                            Increased                 More effective risk       exposures
      Non-EPA:                                     Models                                      knowledge                 management
                             Programs                                    Other Federal
                             Projects                                                                                    decisions
                             Tasks
                                                                         Agencies                                                                  Reduced
      FTEs                                         Assessments                                 Changed                                             contaminant
      $s                                                                                       attitudes                 More effective            uptake
                           Ecosystem                                     Universities
      Equipment                                                                                                          regulatory
                           Research                Publications
                                                                                               Improved skills           decisions
                                                                         Industry                                                                  Reduced health
                           Human Health
      Stakeholder          Risk Assessment
                                                                                                                                                   effects
      Guidance                                                                                                           Customers reduce
                           Research                                      Municipalities &                                exposure through
                                                                         Communities                                     changed
      Strategic            Research to
                           Detect Emerging                                                                               behaviors
      Plans                Risks
                                                       Annual
                                                    Performance
                           Pollution                 Goals and
                           Prevention & New          Measures
                           Technology                 (Current)
                           Research




                                                                                            EXTERNALITIES
        Congressional appropriation and Agency budget decisions, OMB and EPA GPRA planning guidance, economic conditions, industrial capital investment cycles, availability of
              investment capital, Federal and State legislative and regulatory requirements, other federal and non-federal organizations conducting environmental research




Figure 2 above presents a logic model that illustrates the general design of EPA’s Goal 8 core
research program. The items identified in each rectangular “element” of the logic model present
relevant information about Goal 8 core research. The white rectangles and solid arrows represent
actual program design. The shaded rectangles and dotted arrows identify those elements in
Goal 8 plans that are not currently part of the actual program design. The program design
depicted in this model is based on: information presented in EPA’s description of its Goal 8
strategy; ORD’s research strategy and plans; interviews with Goal 8 program managers in ORD
and the Office of the Chief Financial Officer; and workshop discussions with ORD managers.

Figure 3 on the next page presents a logic model that illustrates the general design of EPA’s
Pollution Prevention and New Technologies research program in Objective 8.4. The information
is based on: EPA’s description of its Goal 8 strategy, as well as the Pollution Prevention and New
Technology Strategic Plan, ORD’s draft multi-year plan, interviews with ORD Goal 8 and
Objective 8.4 program managers, and interviews and workshop discussions with ORD managers.
The design of Figure 3 is similar to Figure 2, and differs mainly in the details.



                                                                                              13
                                                          Figure 3: Logic Model Depicting the Objective 8.4 Research Program Design



                                                                                Outreach                                                            Performance Measurement (Desired)
                                                          Communication, Technology Transfer, Training . . .                                       Effective transfer of research results to customers




                                   Annual Research Planning System

Resources                          Activities                              Outputs                               Customers                             Short Term                              Short Term                     Intermediate         LongTerm
                                                                                                                                                       Outcomes                                Outcomes                       Outcomes             Outcomes
FY 01 EPA Resources                Tools                                   Quality Management                    EPA Programs                          (Knowledge, Attitudes,                  (Actions)
$58.6 million and                                                          Plans & Reports                       OPPTS, OW, OAR,                       Skills, Aspirations)                                                   Decreased air
                                   (development of risk                                                                                                                                                                                            Improved human
168.7 FTE (2001 enacted            management tools)                                                             OSWER, OIA, OR                                                                                               emissions and        and ecosystem
as reported in 2002                                                        Evaluation Project Plans                                                                                            Increased use of new
                                                                                                                                                       Customers gain                          technologies.                  aquatic discharges   health
Congressional                      Green Chemistry and                                                           EPA Regions                           knowledge about new
Justification)                     Engineering                             Evaluation Reports                                                          technology performance,                                                Improved ambient
                                                                                                                                                                                               Increased
                                   - In-House                                                                    State & Local                         cost, and reliability                   development of new             conditions
Non-EPA Funding                      (new technology                       Verification Reports                  Agencies                                                                      technologies
DOD, DOE, NSF                        development)                                                                                                      Customers gain                                                         Reduced human
                                   - Grants - new                          Verification Protocols                Other Federal                         knowledge of alternative                                               and ecosystem
                                                                                                                                                                                               Pollution prevention
EPA Research                         technology development)                                                     Agencies                              and less polluting                      tools used to make             exposure to
Equipment:                         - Sectors                               Demonstration Reports                 DOD, DOE                              processes                               more quantitative              pollution
Laboratory equipment &               (demonstration of new                                                                                                                                     decisions about the
supplies                                                                   Journal Publications                  Universities                          Customers become                        most preferred
                                      technologies)
Computer hardware &                                                                                                                                    aware of and learn to use               pollution prevention
software                                                                   Presentations and                     Industry                              new and improved risk                   options
                                   Environmental                                                                                                       management tools
                                   Technology Verification                 Workshops                             Industrial Sectors
Stakeholder Input                                                                                                Verification                                                                  Development of less
                                   (verification of the
Industry technical                 performance of new                      Technology Transfer                   Organizations                         Customer attitudes                      polluting industrial
associations                       technologies)                           Capsule Reports                                                             change (i.e., uncertainty               processes
Environmental groups                                                                                             Municipalities &                      and risk impediments
OSHA                                                                       Website Information and               Communities                           decreased) in regard to                 Development of new
                                   Environmental Systems                                                                                               feasibility of using new
Labor groups                       Management                              Databases                                                                                                           EPA and state
Communities                                                                                                                                            pollution prevention                    standards governing
                                   (develop and assemble                                                                                               technology
State & Federal Agencies           strategy for environmental              Computer Models                                                                                                     use of new
Academia                           systems management)                                                                                                                                         technologies
Congress                                                                   Protocols & Methods                                                         Customers and
                                                                                                                                                       stakeholders support                    For Environmental
                                   Persistent                                                                                                          development and
Research Strategy &                Bioaccumulative Toxics                  ORD Guidance                                                                                                        Technology
Plans                                                                                                                                                  application of pollution                Verification - EPA
                                   (development of better                   Documents                                                                  prevention tools and
                                   methods for identification                                                                                                                                  and Congress
                                                                                                                                                       technologies                            determine whether
                                   and testing)                                                                                                                                                the technology
                                                                                                                                                                                               verification function
                                                                                                                                                                                               can be privatized

                                                                            Annual Performance
                                                                            Goals and Measures
                                                                            (Current)




                                                                                                                           EXTERNALITIES
                     Congressional appropriation and Agency budget decisions, OMB and EPA GPRA planning guidance, economic conditions, industrial capital investment cycles, availability of investment capital, Federal and State
                                                                 legislative and regulatory requirements, and other federal and non-federal organizations conducting environmental
                                                                                                                                                                            :      research.




                                                                                                                                      14
                                     Exhibit 2:
       Office of Research and Development Actions Taken
                    in Response to Evaluation


ORD managers, scientists, and engineers responsible for research in pollution prevention and new
technologies were cooperative and pleased to discuss their research. Their cooperation
contributed to the success of this pilot evaluation. In addition, ORD has undertaken several
actions that respond to our February 2001 briefing. These actions include:

       •   A mid-year fiscal 2001 review that involves ORD executive managers and considers
           how application of the logic model tool can improve the designs and outcome
           orientation of ORD’s research programs.

       •   Guidance for ORD executives and managers to improve the outcome orientation of
           annual performance goals and measures as EPA prepares its initial Fiscal Year 2003
           budget and strategic plan.

       •   Consideration of revisions to the annual research planning system that focus
           discussions and decisions on performance information, including outcomes. These
           revisions will allow ORD and its internal customers to understand how annual funding
           decisions affect ORD’s ability to achieve the short-term outcomes referenced in
           Exhibit 1, and how they affect the customers’ ability to achieve intermediate and long-
           term outcomes.

       •   A consultation between Objective 8.4 managers and OIG experts to identify
           applications of program design and evaluation theory that may enable ORD managers
           to strengthen their existing multi-year research plan for pollution prevention and new
           technologies.

The first three actions identified extend to ORD’s research programs across all EPA GPRA
Goals.




                                                15
16
               Exhibit 3:
Office of Research and Development Response
              to the Draft Report




                    17
       The attachment to this memorandum lists a number of comments on the draft report for
your consideration. Please do not hesitate to contact me or have your staff contact Howard
Cantor (202-564-5236) with any questions regarding our comments.

Attachment

cc: William Farland
    Ann Akland
    Tim Oppelt




                                             18
                                                                                   Attachment

                        ORD Comments on Draft OIG Report
     Design for Objective 8.4 Could Be Improved by Reorienting Focus on Outcomes

1.   On page i of the Executive Summary, the report states that OIG’s objective was to
     “document and evaluate the program designs for the EPA Strategic Plan’s Goal 8 and
     Objective 8.4.” A similar statement appears on page 1 of the Introduction. ORD
     understood the focus of the pilot to be Objective 8.4. While it is clear that some study of
     Goal 8 overall was necessary for context, we did not believe that Goal 8 was the focus of
     the evaluation. Further, the vast majority of ORD’s discussions with the OIG team
     pertained to Objective 8.4 only.

2.   On page 5 of the report, the first paragraph under Summary of Observations seems to
     focus on ORD’s multi-year plans. This language (second, third, and fourth sentences)
     appears out of place. In addition, language almost identical to these sentences appears on
     page 9 under the Planning System Can Be Enhanced section. It is more appropriate there,
     and we therefore suggest removing it from page 5.

3.   There is a typographical error on page 12. In the last paragraph, “...ORD can benefit be
     recognizing...” should be changed to “...ORD can benefit by recognizing...”

4.   On page 13, the report states that Figure 3 is based on information gathered from a
     number of documents, but does not reference the multi-year plan. Is this an intentional
     omission, or an oversight?




                                              19
